/

1.
No.

IN THE
SUPREME COURT OF THE UNITED STATES

Isabel del Pino Allen

— PETITIONER

VS.
Board of Trustees of Miami Dade College

RESPONDENT(S)

PROOF OF SERVICE
Isabel del Pino Allen
, do swear or declare that on this date,
February 4th
, 20 21 as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
Luke Savage, Counsel for Board of Trustees of Miami Dade College
Allen Norton and Blue
121 Majorca Ave. # 300, Coral Gables, FI. 33134

RFOEIVED
FEB \0 OT
„

I declare under penalty of perjury that the foregoing is true and\ correct.
Executed on

February 4,

, 2021T

